            1




                                               OFFICE OF JNSPECTOR GENERAL
                                                 OFFICE OF INVESTIGATIONS

                                        CLOSEOUT MEMORANDUM

Case Number: A-07050029



     We learned initially one NSF proposal' submitted by the PI^ appeared to contain plagiarized text.
     We contacted the PI on the proposal to obtain an explanation for the apparently copied text.
     Because the PI'S explanation did not refute the concern, we referred the allegation to the PI'S
     institution for a detailed i n ~ e s t i ~ a t i o n . ~

     The institution discovered the PI had submitted a second NSF proposal that contain additional
     copied text.4 The institution determined that the PI committed research misconduct when he
     plagiarized text into two NSF proposals. It also required the PI to 1) enroll within one year in a
     research ethics class, 2) submit amended versions of any proposal currently under'review so as to
     eliminate any direct quotes from external sources, and 3) submit for three years all publications,
     abstracts, or presentations to his department chair for review.

     We provided our assessment and recommendation to NSF (attached). NSF accepted our
     recommendations and made a finding of research misconduct (attached).

     This case is closed and no further action will be taken.
                                                                                                              I




                                                                                                              I
                                                                                                              I
                                                                                                              I
                                                                                                              I

                                                                                                              ~


                                                                                                          I




                                                                                                          I


                                                                                                          I
                                                                                                          i
                                                                                                          I
                                       NATIONALSCIENCE FOUNDATION
                                            4201 WILSON BOULEVARD
                                           ARLINGTON, VIRGINIA 22230




i        OFFICE OF THE
I       DEPUTY DIRECTOR




1   CERTIFIED MAIL --RETURN RECEIPT REQUESTED




            Re:     Notice of ~ e s e a r c hMiscottduct ~Qterminatiotz
                                           ?




                                                       the National Science Foundation ("NSF").


                                                                   d in the attached Investigative Report
                                                                    e l~roposalscontained plagiarized
    text.                                                                                             ,   .




    Research Misconduct and Proposed Sanctions
             Under NSF's regulations, "research misconduct" is defined as "fabrication, falsification, or
    plagial-ism in proposing or perfo~iningresearch hnded by NSF . . ." 45 CFR Q; 689. I (a). NSF
    defines "plagiarism" as "the appl-opriation o f another person's ideas, processes, results or words
    without giving appropriate credit." 45 CFR $ 689.l(a)(3). A finding ofresearch misconduct
    requires that:

            ( 1 ) There be a significant departure fi-on1 accepted practices of the relevant I-eseal-ch
                  co 111111unity; and
            (2) 'The research ~nisconductbc coil~mittedintentiOrizrlly, or knoufingly,or I-ecklessly;;111tl
            (3) The allegation be proven by a 111-eponderanceo f evidence
                                                                                                Page 2
attribution, as described in the OIG Investigative Report, you misrepresented someone else's
work as your own. Your conduct unquestionably constitutes plagiarism. I therefore conclude
that your actions meet the definition of "research misconduct" set forth in NSF's regulations.

        Pursuant to NSF regulations, the Foundation must also determine whether to make a
finding o f misconduct based on a preponderance of the evidence. 45 CFR 689.2(c). After
reviewing the Investigative Report and the University Committee Report, NSF has determined
that, based on a preponderance of the evidence, your plagiarism was committed knowingly and
constituted a significant departure fiom accepted practices of the relevant research community. I
am, therefore, issuing a finding of research misconduct against you.

         NSF's regulations establish three categories of actions (Group I, 11, and 111) that can be
taken in response to a finding of misconduct. 45 CFR 5 689.3(a). Group I actions include issuing
a letter of reprimand; conditioning awards on prior approval of particular activities fiom NSF;
requiring that an institution or individual obtain special prior approval of particular activities fiom
NSF; and requiring that an institutional representative certify as to the accuracy of reports or
certifications of compliance with particular requirements. 45 CFR fj 689.3(a)(l). Group I1
actions include award suspension or restrictions on designated activities or expenditures; requiring
special reviews of requests for fknding; and requiring correction to the research record. 45 CFR fj
689.3(a)(2). Group I11 actions include suspension or termination of awards; prohibitions on
participation as NSF reviewers, advisors or consultants; and debarment or suspension fiom
participation in NSF programs. 45 CFR fj 689.3(a)(3).

        In determining the severity of the sanction to impose for research misconduct, I have
considered the seriousness of the misconduct, our determination that it was committed recklessly,
as well as our determination that it was a part of a pattern. I have also considered the fact that
your misconduct had no impact on the research record, your cooperation with the investigation,
as well as other relevant circumstances. 45 CFR fj 689.3 (b).

        In light ofthe foregoing, I am taking the following actions against you:

        (1)     Until January 20, 201 1, you must provide certifications to the OIG that any
                proposal you submit to NSF as a PI or co-PI does not contain plagiarized,
                falsified, or fabricated material; and

        (2)    You must certify to the OIG that you have completed a research ethics training
               course by December 3 1,2009.

       The certifications should be submitted in writing to the Office of Inspector General,
Associate Inspector General for Investigations, 4201 Wilson Boulevard, Arlington, Virginia
22230.
                                                                                             Page 3
Procedures Governing Appeals
          Under NSF7sregulations, you have 30 days after receipt of this letter to submit an appeal
o f this decision, in writing, to the Director of the Foundation. 45 CFR 5 689.10(a). Any appeal
should be addressed to the Director at the National Science Foundation, 4201 Wilson Boulevard,
Arlington, Virginia 22230. If we do not receive your appeal within the 30-day period, this
decision will become final.

       For your information, we are attaching a copy of the applicable regulations. If you have
any questions about the foregoing, please call             Assistant General Counsel, at (703)
292-8060.


                                                      Sincerely,




                                                     Cora B. Marrett
                                                     Acting Deputy Director


Enclosures
                              .
-  Investigative Report
- 45 C.F.R. Part 689
        National Science Foundation
        Office of Inspector General




                       Confidential
                  Report of Investigation
                 Case Number k07050029
                           24 September 2008


I
I
    This Confidential Investigation Report is the property of the NSF OIG and may be disclosed outside
       NSF only by OIG under the Fnxdom of I n f o d o n and PrivacyActs, 5 US.C §§ 552,552~
                                                                                                             I
                                                                                                             I1
                                                                                     NSF OIG Form 22b (1 1/06)
                                      Executive Summarv

Allegation:    Plagiarism

OIG Inquiry:

               Two unfunded NSF proposals contained text apparently copied from multiple
               source documents.
               We referred the allegation to the subject's University for investigation.

University Investigation and Actions:

               The University discovered additional copied text in one of the NSF proposals as
               well as copied text in three non-NSF proposals.
               The University concluded a preponderance of the evidence proved the subject
               plagiarized the text in the two NSF proposals.
               The University:
                       reprimanded the subject;
                       required the subject enroll in a research ethics class;
                       required the subject to submit amended versions of any proposal currently
                       under review so as to eliminate any direct quotes from external sources
                       that were not properly shown as quotes;
                       and
                       required the subject, over the next three years, have any proposal,
                       publication, abstract, or presentation for submission reviewed in advance
                       by his department chair or by a designee of the chair, with particular
                       attention to proper citation of sources.

OIG Assessment:

       We concur with the University that the subject plagiarized text into two NSF proposals.

       The Act: The subject plagiarized a total of 66 lines of text into two NSF proposals.
       Intent: We determined that the subject acted recklessly.
       Standard of Proof The preponderance of the evidence supports the conclusion that the
       subject recklessly plagiarized these materials into his NSF proposals.
       Simificant Departure: We concur with the University in concluding the subject's
       copying represents a significant departure from community standards.
       Pattern: The subject plagiarized text in two NSF proposals as well as three non-NSF
       proposals.
OIG Recommendations:

     Send a letter of reprimand to the subject informing him that NSF,has made a finding of
     research misconduct;

     Require the subject to certify that proposals he submits to NSF for 2 years do not contain
     plagiarized, falsified, or fabricated material; and

     Direct the subject to attend a course in research ethics within one year.
Our analysis of the NSF proposal (Proposal I),' submitted by subjects 1 and 2, revealed about 33
lines of text, including 2 embedded citations that were apparently copied from 4 source
documents. We initiated our inquiry by writing to each subject (Tab 1).

Subject 2 responded (Tab 2) that she had been listed as a co-PI because of the technical aspects
of the project, but had not been involved in actually writing the proposal.

Subject 1 responded (Tab 3) admitting that "some contents from the materials you referred in the
inquiry letter are not properly referenced to the original materials in my proposal."2 He
explained he neverhtended "to avoid the proper citation^."^ He further explained that he was a
new assistant professor, joining the University about 6 months prior to his receipt of our letter of
inquiry. He stated that the deadline for submission of the. proposal combined with his lack of
experience with the proposal process resulted in many mistakes with his use of materials.
Subject 1 also pointed out the sections annotated by OIG as C 1 and C2 should not be considered
plagiarism because he found many other similar descriptions in the literature. He indicated that
he did not use source document D, but did use another document that he identified.

.hresponse to our question about whether any other proposals submitted to NSF contained
copied text, subject 1 stated that he found some "minor .errorsn4in an earlier NSF proposal he
submitted as the sole PI (Proposal 2).'      '




As a result of the subjects' responses, we re-evaluated Proposal 1 and we discovered an
additional 19 lines of copied text (Tabs 4 and 5). This, plus an additional 9 lines of copied text,
identified by subject 1, in Proposal 2, resulted in a total of 61 lines of text.

The subjects' responses did not dispel the allegation..We determined that there was sufficient
substance to warrant an investigation, and referred the investigation to the subjects' Uni~ersity.~



The Investigation Committee (the Committee) quickly determined that subject 2, as she had
                                                                                                       .
originally stated, did not author any portion of Proposal 1. Consequently, subject 1, henceforth,
will be identified as the sole subject of this investigation.




 Tab 3, Letter dated June 22,2007, page 1.
'Ibid, page 1.
                                  -   -
After reviewing the evidence OIG provided, the Committee determined that the subject

         did indeed copy exact language from Sources A-F that had been identified in
         [Proposal I] by the OIG. The amount of copying, most of it word-for-word, was
         about 52 lines?

The subject had indicated in his response to NSF7sOIG that

         he might have included proper citations in an earlier draft &d then deleted them
         in haste while preparing the final version or in an attempt to conform to space
         limitation^.^
As a result of this, the Committee reviewed the subject's earlier draft of Proposal 1. It found that
the subject failed to provide proper citations to the copied text in the draft also.

The Committee determined that, in most instances, the subject did include the citations at or near
the copied passages, although in a few cases the subject had made errors in the references.

The Committee also evaluated Proposal 2 which the subject had indicated to OIG contained
copied text. The Committee discovered an additional 5 lines of copied text fiom 3 additional
source documents (Tab 7, Appendix H). The Committee stated that the subject's explanation for
the copied text was identical to previous explanations he provided.

To further evaluate for pattern of behavior, the Committee evaluated all four proposals submitted
by the subject to agencies other than NSF since his arrival at the University. It discovered some
de minimis amount of copied text in three of these.9

The Committee commented that the actions by the subject were

         [p]rimarily related to his misconception that the text copied verbatim f h m a
         published document need not be explicitly identified (e.g., enclosed in quotation
         marks) as long as the original source document is cited. In addition, he
         mistakenly believed that the standards for a proposal were different fiom those for
         a manuscript (proposal standard being relatively less stringent) (Appendix N)."


The Committee recommended the following1':

    1. The subject should be found to have committed                               in the two proposals he


'Tab 7, Investigation Report, page 4, C.2.
  Ibid, page 4, C.3.
  Ibid, page 4, C.6 and Appendices I, J, K, and L.
lo Ibid, page 5, D. 1.
l 1 Ibid, page 6. It recommended that all allegations of misconduct on the part of the co-PI, originally subject 2, be
    viewed as without merit and should be dropped.
             submitted to NSF as well as three other proposals listed in the report;''

          2. The subject should enroll in a research ethics class during the next year;

          3. The subject should submit amended versions of any proposal currently under review so
             as to eliminate any direct quotes from external sources that are not properly shown as
             quotes;

          4. Any proposal, publication, abstract, or presentation by the subject over the next three
      '

             years should be reviewed in advance by his department chair or by a designee of the
             chair, with particular attention to proper citation of sources;

          5. That the plagiarism was limited to presentation of background information should be
             taken into consideration in the event additional sanctions are contemplated;

          6. The ~ c h o o lin
                             ' ~which the subject works should include in its orientation for new faculty
             a discussion of research integrity issues;

          7. The School should consider requiring its entire faculty to enroll in and successfully
             complete the Internet-based Studies in Education and Research module on research
             integrity as a condition for submitting research funding proposals.

The Committee shared the report with the subject, who responded, suggesting minor inaccuracies
(which the Committee corrected) as well as questioning the finding of plagiarism and
misconduct based on the act of copying as an '%onest mi~take."'~The Committee discussed this
further and concluded that

             [allthough [the subject's] act of plagiarism may have been a result of his
             ignorance and inexperience, he knew that he was copying someone else's
             material. Therefore, the Panel continues to believe that the finding of plagiarism
             and misconduct is justified and the mitigating circumstances (such as ignorance
             and inexperience and plagiarism limited to the presentation of background
             information) should be take into account for detemrining appropriate sanction^.'^

On December 17,2007, the adjudicating official16approved the Investigation Report, accepting
the Committee's specific recommendations with respect to the subject.




                               4, C . 6 4 C.6.b, and C.6.c.

l4   Investigation Report, page 6, F., and Appendix M, subject's response to the Draft Investigation Report.
                                                OIG 's~isessrnent

NSF's Research Misconduct Regulation states that a finding of misconduct requires:

        (1) There be a significant departure from accepted practices of the relevant
        research community; and (2) The research misconduct be committed
        intentionally, or knowingly, or recklessly; and (3) the allegation be proven by a
        preponderance of the e~idence.'~

We evaluated the information provided in the University's Report (Tab 7) as part of our review.
We wrote the subject informing him of our independent investigation and asked if he had
additional comments concerning the University's Report. He provided additional information."
We accept the University's report as accurate and complete, and we conclude the University
followed reasonable procedures in its investigation. The Committee was thorough in assessing
the evidence and fair in its evaluation.

                                                       The Act

Through the subject's admissions and the University's investigation, we determined the subject
copied verbatim text, totaling 66 lines from 8 source^'^ into 2 unfunded proposals, without
proper attribution. Most of the sources were cited close to the copied text with a few exceptions
and a few errors with citations. The total amount of copied material represents about a page of
copied text (see table). .

     Proposal          Number of Number of Figures               -   Number of Embedded   Total Amount
                         Lines                                           Citations          Funded
         1                  52                     0                           2               0
         2                  14                     0                           0               0
       Totals               66                     0                           2               0


                                                       Intent

Based on our review of the evidence, we conclude the subject acted recklessly when he copied
the text into his NSF proposals. The subject expressed his lack of understanding that the
standards for the preparation of an NSF proposal. He believed that standards were different from
those of a publication because a proposal was confidential while a publication was           In
pursing what the subject's view of this difference actually entailed, the Committee discovered
that, the subject "never use[d] quotations."21 When the subject was asked to explain in more


l7 45 CFR $ 689.2(c).
   Tab 8. January 14,200,8, letter to subject and subject's February 7,2008, response.
                                                                .
l9 Sources included 7 publications and 1 online definition.
u, Tab 7, Appendix E, subject interview, page 12.
21 Ibid, page 14. '
detail about his understanding of the difference then between the standards in preparing a
proposal and a publication, he responded that       .


           [i]n a publication, I will take more time to check all of the references and citations
           to make sure if it will be correct, but in the proposal, it is very time-limited, I
           didn't have enough time to check every citation.22

Further, although the subject's native language is not English, and most of his educational
training occurred outside the U.S., he received his Ph.D. from a well-known University in the
U.S. paor to beginning his current position.23 heref fore, we find the subject's statements that he
lacked appropriate awareness to be a weak argument.

                                            Standard ofProof             ,

Based on our revi'ew and the review of the Committee, we concluded that the preponderance of
the evidence indicates that.the subject copied these materials into his proposals without
appropriately distinguishingthe text from his own work. Further, OIG concludes that the
subject's behavior deviates .from accepted practices.

Because the prepondqance of the evidence proves that the subjects recklessly copied text into
two NSF proposals, OIG concludes that the subject's actions constitute plagiarism and therefore
constitute research rriisconduct.

                                           Subject's Response

We wrote to the subject on 25 July 2008 (Tab 9). The subject's 25 August 2008 response (Tab 10)
expressed disagreement with the finding that he acted recklessly. He stated that he made these
mistakes in copying because of his inexperience and lack of training. 'He hoped we would find he
had not committed misconduct because he had made honest mistakes. Further, the subject stated
that, because he did not know his copying was plagiarism, there should be no evidence of a .
pattern. Finally, the subject stated that because he had already completed a co&e in scientific
ethics, our requirement that he complete such a course should be dropped. However, we found no
reason to change our recommendations.

                                    OIG Recommended Disposition

Wheri deciding what appropriate action to take upon a finding of misconduct, NSF must
consider:

           (1) How serious the misconduct was. (2) The degree to which the misconduct was
           knowing, intentional, or reckless. (3) Whether it was an isolated event or part of a
           pattern. (4) Whether it had a significant impact on the research record, research



     hid, page 14.
23
           subjects, other researchers, institutions or the public welfare. And (5) other
           relevant circumstance^.^^

                                                    Seriousness

Plagiarism strikes at the very heart of research integrity and is an unacceptable practice within
the research'community. In addition,

           NSF expects strict adherence to the rules of proper scholarship and attribution.
           The responsibility for proper attribution and citation rests with authors of a
           proposal; all parts of the proposal should be prepared with equal care for this
           concern. Serious failure to adhere to such standards can result in findings of
           research misconduct. NSF policies and rules on misconduct in science and
           engineering are discussed in Grant Policy Manual (GPM) Section 930 as well as
           in 45 CFR Part 689. (GPG section I.B.(10/2003)).

The subject's actions are a violation of the standards of scholarship and of the fimdamental tenets
of research ethics. The extent of the plagiarism is significant. While the actual research ideas in
the subject's proposals are original, the subject included plagiarized materials in order to
compensate for his lack of familiarity with the background information.

                                                 Demee ofIntent

The act of plagiarism is generally an act done knowingly. In this case, in submitting his NSF
proposals, the subject clearly knew that he was using the text of others, stating that "he knew that
he was copying someone else's material."25 However, in his interview with the Committee, and
in his responses to our office, he displayed a significant lack of understanding of proper
attribution expectations in an NSF proposal and proper citations practices. The fact that the
subject did provide some embedded reference citations, to the source material, supports the
argument for a lesser degree of intent in this case.

                                                       Pattern

  The subject submitted two proposals to NSF that contained plagiarized text. In addition, the
  subject submitted three proposals to other agencies26that contained relatively minor amounts (4
  lines or less in each) of plagiarized text. The subject's practice of copying text into multiple
' proposals, suggests that the subject's actions were a part of a pattern of behavior.



                                         Impact on the research record

There is no evidence of any impact on the research record as a result of the plagiarism in the
proposals submitted to NSF.


l4 45   C.F.R. 8689.3(b).
l5 Tab 7, Investigation Report, page 6  F.
l6 InvestigationReport, page 4,   C.6 (Tab7), and Appendices I, J, and K (Tab 7)
                                               Mitigating Factors

The subject cooperated fully with the University's and completed an online ethics course..27


                                               Recommendations

Based on the evidence, OIG recommends that NSF:

             Send a letter of reprimand to the subject informing him that NSF has made a finding
             of research miscond~ct~~;

             Require the subject to certify that proposals he submits to NSF do not contain
             plagiarized, falsified, or fabricated material for 2' years29;

             Direct the subject to attend a course in research ethics within 1 ear of the final
             disposition of the case and certify to NSF's OIG that he has done so3 1.

The subject's certifications and proof of an ethics course should be sent to the Associate
Inspector General for Investigations for retention in OIGYsconfidential file on this matter.




27 Tab 7, Appendix E, Subject interview transcript, page 15.
   This is a Group I actions, 45 CFR $689.3(a)(l)
29 This is equivalent to a Group I action 45 CFR $689.3(a)(l)
30 This is equivalent to a Group I action 45 C.F.R $689.3(a) (1).
